                                                      UNITED STATES GOVERNMENT
                                            FEDERAL COMMUNICATIONS COMMISSION
                                                     OFFICE OF INSPECTOR GENERAL


                                                   MEMORANDUM

DATE:         December 6, 2010

TO:           Steven VanRoekel, Managing Director

FROM:         David L. Hunt, Acting Inspector General

SUBJECT: Reissuance of Report on the Audit of FCC’s Property Management System


The Office of Inspector General (“OIG” or “Office”) issued the subject audit report on May 18,
2010. Subsequent to the report’s issuance, we were contacted by the Office of Managing
Director and informed that management wanted to submit a supplemental response on the results
of the audit. The supplemental response was provided on August 25, 2010.

OIG has reviewed the supplemental response and determined that the information provided does
not require a supplemental audit report. Therefore, the audit report is being reissued in its
entirety, along with the supplemental information. OIG notes that the supplemental response
provides management’s concurrence on additional findings that were not concurred with in
management’s original response to the draft report. This supplemental information results in
management’s concurrence to five out of six findings contained in the audit report.

Please contact me or Tom Cline of my Office on 202-418-7890 if you have any questions.


Attachment

cc:    Wanda Sims, Associate Managing Director, Administrative Operations
       Walt Boswell, Performance Evaluations and Records Management
AUDIT OF THE FEDERAL
COMMUNICATIONS COMMISSION
PROPERTY MANAGEMENT SYSTEM’S
COMPLIANCE WITH FINANCIAL
SYSTEMS INTEGRATIONS OFFICE
REQUIREMENTS



FY 2009
 
                                                 TABLE OF CONTENTS



EXECUTIVE SUMMARY ................................................................................................................ 1 



BACKGROUND ................................................................................................................................ 3 



RESULTS OF AUDIT........................................................................................................................ 5 



   FSIO Property Management System General Requirements.......................................................... 5 



   FSIO Requirements for Acquiring/Receiving Property.................................................................. 8 



   FSIO Requirements for Managing and Accounting for Property................................................... 8 



   Design and Implementation of Internal Control ........................................................................... 10 



OBJECTIVES, SCOPE, AND METHODOLOGY.......................................................................... 11 



Appendix A – GENERAL REQUIREMENTS ................................................................................ 13 



Appendix B – ACQUIRING/RECEIVING PROPERTY................................................................. 14 



Appendix C – MANAGING and ACCOUNTING FOR PROPERTY ............................................ 15 



Appendix D – MANAGEMENT’S RESPONSE ............................................................................. 18 
                                       EXECUTIVE SUMMARY



The objectives of our audit of the Federal Communications Commission (FCC) Property
Management System (PMS) were to:

          •    Determine whether the FCC’s property management system met the Financial
               Systems Integrations Office (FSIO) (formerly Joint Financial Management
               Improvement Program) Federal Financial Management System Requirements for
               Property Management Systems (JFMIP-SR-00-4).

          •    Evaluate the design and implementation of internal control related to the property
               management system.

We conducted this performance audit of the FCC’s PMS for the fiscal year ended September 30,
2009, in accordance with standards applicable to performance audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

During our audit, we noted the following matters relating to compliance with the financial
management system requirements of FSIO and internal control over the property management
system:

      •   The FCC PMS did not meet three of the 12 mandatory general requirements for property
          management systems as follows:

                        1. The current system lacks the mandatory functionality to distinguish
                           between property expensed and property capitalized.

                        2. The FCC did not submit to the General Services Administration’s (GSA’s)
                           Worldwide Inventory System the required Annual Real Property Inventory
                           report. This is a report of all land, buildings, and other structures owned
                           by the FCC throughout the world and all real property FCC leased from
                           private individuals, organizations, municipal, county, state, and foreign
                           governments. This report was due to be submitted to the GSA’s, Office of
                           Governmentwide Policy, Office of Real Property (MP), no later than
                           November 15, 2009.1

                        3. The condition of a property item tracked in the PMS is not supported by a
                           documented condition assessment survey.



1
    A draft report/matrix was submitted to GSA on January 22, 2010 and the final report/matrix was submitted on
    March 22, 2010.


                                          FEDERAL COMMUNICATIONS COMMISSION | 1
    •   The FCC PMS also did not meet certain mandatory system requirements for “Managing
        and Accounting for Property”, as follows:

                     1. The FCC lacks a fully integrated financial management system. Asset
                        information in the BarScan2 is posted to Federal Financial Management
                        System (FFS) via a manual ad-hoc process.

                     2. BarScan does not capture the current user of a property item.

                     3. The bi-annual Report of Survey3 identified 43 property items as not
                        inventoried or located, of which 29 had been in the custody of two FCC
                        officials and a contractor. In addition, 14 property items had not been
                        inventoried or located since FY 2007. These reports also identified
                        sensitive property items not self-certified by the custodians as required by
                        FCC policies and procedures.

We evaluated management’s comments and considered those comments in preparing our final
report. See Appendix D-Management’s Response.

                                                        




2
  The automated portion of the Property Management System is known as the “Asset Information
  System/BarScan” (AIS/BarScan) and consists of a database that contains an inventory of all property.
3
  It is the FCC’s policy that in the event that property and/or equipment is lost, damaged, or stolen, a
  survey should be conducted to identify property and/or equipment affected. The individual discovering
  the loss/theft/damage is responsible for completing the FCC Form 103, Report of Survey. All Report of
  Survey steps and decisions shall be noted in a timely fashion on the FCC Form 103. The survey will
  institute corrective actions which will (1) fix responsibility, (2) establish procedures for disposition of
  damaged property, and (3) identify processes to avoid future losses and decrease damages and
  destruction.


                                       FEDERAL COMMUNICATIONS COMMISSION | 2
                                      BACKGROUND



The Federal Communications Commission (FCC) is an independent United States government
agency directly responsible to Congress. The FCC was established by the Communications Act
of 1934 and is charged with regulating interstate and international communications by radio,
television, wire, satellite, and cable. It is directed by five Commissioners appointed by the
President of the United States and confirmed by the Senate. The Commissioners supervise all
FCC activities, delegating responsibilities to Bureaus, Offices, and staff units.

The FCC’s Office of the Managing Director, (OMD) is responsible for developing policy
regarding asset management and for implementing, enforcing, and complying with applicable
regulations governing the management of inventory, property, plant, equipment, and software.
The Associate Managing Director – Administrative Operations (AMD-AO) is designated as the
Property Management Officer (PMO) and is responsible for developing procedures to implement
the policies developed by the OMD. The Administrative Service Center (ASC) resides within
the Office of Managing Director (OMD) and the Manager, ASC is designated as the Assistant
Property Management Officer (APMO). The ASC has developed and is maintaining a
comprehensive and uniform property management program that covers the acquisition,
maintenance, use, protection, and disposition of all FCC property.

This property management system uses a combination of manual and automated processes to
create and maintain master property records (MPR) on all inventory items. The automated
portion of the system is known as the “Asset Information System/BarScan” (AIS/BarScan) and
consists of a database that contains an inventory of all property. The MPR consist of all
documents and related information concerning the asset, including purchase documents,
receiving reports, invoices, property custody/transfer forms, and bar coding information. The
manual portion of the system consists of the performance of physical inventories, the application
of bar code stickers, the reconciliation of property discrepancies, and recognizing and recording
capitalized assets.

The Financial Statement and Policy Group, within Financial Operations, uses the information
generated from BarScan to record and recognize capital assets and the related depreciation for
reporting on the FCC financial statements. The FCC has a $25,000 capitalization threshold for
all property items, except for bulk purchases and software. The FCC capitalizes bulk purchases
where the item, if priced individually, is less than $25,000 and where the aggregate cost is
greater than $250,000. The FCC capitalizes software if its cost is $50,000 or greater.

The FSIO Federal Financial Management System Requirements for Property Management
Systems reflects both functional and financial systems requirements associated with property
management systems and addresses the goals of the Chief Financial Officers (CFO) Act of 1990,
the Government Management Reform Act (GMRA) of 1994, and the Federal Financial
Management Improvement Act (FFMIA) of 1996, which strongly reaffirm the need for the



                                  FEDERAL COMMUNICATIONS COMMISSION | 3
Federal Government to provide financial systems that facilitate the effective management of
Government programs and services and the proper stewardship of public resources.

The FSIO requirements for property management systems state that agencies must use these
functional requirements in planning their property management systems improvement projects,
and may develop additional technical and functional systems requirements as needed to support
unique mission responsibilities. Agencies must also develop strategies for interfacing or
integrating property management systems with their core financial management system and other
applicable systems.

FSIO property management systems functions are designated as mandatory or value-added.
Mandatory requirements describe what the system must do and consist of the minimum
acceptable functionality necessary to establish a system, and are based on Federal laws,
regulations, directives, or judicial decisions. In addition, mandatory requirements are those
against which agency heads evaluate their systems substantial compliance with systems
requirements under the FFMIA. Value-added requirements describe features or characteristics
and may consist of any combination of the following: (1) using state-of-the art technology, (2)
employing the preferred or best business practices, or (3) meeting the special management needs
of any individual agency. The need for value-added features in agency systems is left to the
discretion of each agency head.




                                  FEDERAL COMMUNICATIONS COMMISSION | 4
                                             RESULTS OF AUDIT



The FCC PMS did not meet three of the 12 mandatory general requirements, and we noted
exceptions with the FSIO mandatory system requirements for “Acquiring/Receiving of Property”
and “Managing and Accounting for Property”. We also noted findings related to the design and
implementation of internal controls over the tracking and monitoring of accountable property.

The FY 2009 independent auditor’s report on internal control over financial reporting identified
the FCC’s lack of a single, integrated financial management system as a significant deficiency4.
The data in BarScan is posted to the FFS via system generated reports and manually prepared
Excel spreadsheets.

                          FSIO Property Management System General Requirements

Mandatory general requirements are system functional capabilities required for all property
management systems. The FCC PMS did not meet three of the 12 mandatory general
requirements.

FINDING NO. 1

One of the mandatory general requirements is that the PMS distinguish between capitalized and
expensed property items. The current system lacks the mandatory functionality to distinguish
between property expensed and property capitalized and, therefore, is not in compliance with
FSIO requirements.

The BarScan inventory system, a component of the PMS, is not structured to capture general
ledger accounting data for property items that meet the FCC’s capitalization threshold. The
Financial Statement and Policy Group (FSPG) is responsible for reviewing and reconciling the
monthly report of acquisitions, disposals and transfers of software in progress. On a monthly
basis, the FSPG staff prepares manual journal entries to record capitalized property in the FFS.

Property capitalized and recorded in property management systems are individual property items,
items acquired separately but consolidated to represent one item, or items purchased in bulk,
whose acquisition or fair market values meet agency-established capitalization thresholds. Such
items are recorded in the PMS to maintain physical accountability over the property.



4
    A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe than
    a material weakness, yet important enough to merit attention by those charged with governance. A material
    weakness is a deficiency, or combination of deficiencies, in internal control, such that there is a reasonable
    possibility that a material misstatement of the entity’s financial statements will not be prevented, or detected and
    corrected on a timely basis.


                                              FEDERAL COMMUNICATIONS COMMISSION | 5
Property expensed and recorded in property management systems includes sensitive or
controlled property that is expensed when acquired because the cost is below the agency-
established capitalization threshold. Agencies record and maintain expensed property for
accountability and management purposes.

The FSIO Federal Financial Management System Requirements for Property Management
Systems states, “Financial management systems in the Federal Government must be designed to
support the vision articulated by the Government’s financial management community. This
vision requires financial management systems to support the partnership between program and
financial managers and to assure the integrity of information for decision-making and measuring
performance. This includes the ability to: collect accurate, timely, complete, reliable, and
consistent information; facilitate the preparation of financial statements and other financial
reports in accordance with Federal accounting and reporting standards; …”. It also states that a
Systems’ mandatory functionalities are prescribed by Federal laws, regulations, directives, or
judicial decisions; and used by agency heads to evaluate their systems substantial compliance
with systems requirements under the Federal Financial Management Improvement Act.

Because BarScan is not structured to capture this information, the FCC PMS may be inadequate
to assist management in collecting and maintaining timely information for financial reporting in
accordance with accounting principles generally accepted in the United States.

RECOMMENDATION

1.1        We recommend that the FCC make modifications to its property management system to
           ensure that it complies with mandatory system functionality, including the functionality
           to distinguish between capitalized property and expensed property.

FINDING NO. 2

The FCC did not submit timely to the GSA’s Worldwide Inventory System the required annual
real property inventory report of all land, buildings, and other structures owned by the FCC
throughout the world and all real property FCC leased from private individuals, organizations,
municipal, county, state, and foreign governments that was due by November 15, 2009.5

The FCC Property Management Officer (PMO) did not ensure that the FCC meet the Federal
requirement for submitting the Annual Real Property Inventory report that is due to the GSA by
November 15 of each year.

Executive Order 12411, Government Work Space Management Reforms, dated March 29, 1983,
states that the Heads of all Federal Executive agencies shall (a) Produce and maintain a total
inventory of work space and related furnishings and declare excess to the Administrator of
General Services all such holdings that are not necessary to satisfy existing or known and
verified planned programs and (b) Establish information systems, implement inventory controls

5
    A draft report/matrix was submitted to GSA on January 22, 2010 and the final report/matrix was submitted on
    March 22, 2010.




                                          FEDERAL COMMUNICATIONS COMMISSION | 6
and conduct surveys, in accordance with procedures established by the Administrator of General
Services, so that a government-wide reporting system may be developed. Also, 41 C.F.R.
102.84 states that each agency that carries real property on its financial statement as of
September 30 each year has the responsibility for submitting the real property inventory
information.

Per the FCC Asset Management Policies and Procedures (AMP&P), the PMO is responsible for
periodically evaluating the Commission’s personal property programs and systems to determine
the status of compliance with the Commission’s directive and standards and procedures
established by the GSA in the FPMR for the Government-wide personal property program.

The FCC’s failure to submit the GSA Annual Real Property Inventory report to the GSA’s
Worldwide Inventory System in a timely manner may impair the GSA’s ability to (a) Maintain a
centralized source of information on Federal real property holdings; (b) Track space utilization
of reporting agencies; (c) Provide support for consolidated Federal financial statements on real
property assets; and (d) Establish a reference for answering inquiries from the Congress, general
public and other stakeholders in a timely manner.

RECOMMENDATION

2.1    We recommend that the PMO or designated FCC official comply with the Federal
       requirement that an Annual Real Property Inventory report be submitted to GSA by
       November 15 of each year.

FINDING NO. 3

The FCC did not meet the mandatory general requirement for conducting and documenting a
condition assessment survey for property tracked in BarScan because the condition of the
property item tracked in the PMS is not supported by a documented condition assessment survey.
The property condition captured in the FCC PMS is based on employees’ physical observation of
the property items.

The Statement of Federal Financial Accounting Standards No. 6, Accounting for Property, Plant
and Equipment, states, “Condition assessment surveys are periodic inspections of all Property,
Plant and Equipment to determine their current condition and estimated cost to correct any
deficiencies. It is desirable that condition assessment surveys be based on generally accepted
methods and standards consistently applied.”

Because the ASC has not developed a formal and standardized process for conducting and
documenting a condition assessment survey for FCC property, the FCC is susceptible to the risk
that property value is overstated due to the failure to capture and recognize permanent decline in
the value of property. In addition, a property item with a useful economical life may be disposed
or retired improperly due to improper categorization of the condition of the property.




                                   FEDERAL COMMUNICATIONS COMMISSION | 7
RECOMMENDATIONS

We recommend that:

3.1       FCC’s management seek the opinion of the GSA or other governing body as to the
          requirements for completing condition assessment surveys on real property and/or general
          property, plant and equipment.

3.2       FCC develop and implement a formal process for conducting and documenting condition
          assessment surveys for heritage assets, stewardship land, national defense Property, Plant
          and Equipment (PP&E), and general PP&E, as applicable.

The matrix in Appendix A identifies the results of our testing for each of the 12 FSIO mandatory
general requirements.

                         FSIO Requirements for Acquiring/Receiving Property

This function addresses assumption of initial physical control when property is delivered or real
property is placed in service. Property is recognized as accountable when title passes to the
entity obtaining the property or when goods are delivered. Property may be purchased, leased,
loaned, granted, transferred, constructed, or donated. Upon receipt of property, the property
management system should capture confirmation information about physical receipt and forward
the information to the acquisition system and the core financial management system.

The BarScan system did not forward physical receipt information, including quantity and date of
physical receipt, to the acquisition system and Core Financial System. This deficiency, however,
is discussed below in “Managing and Accounting for Property.” See the matrix that identifies
the results of our compliance testing for the mandatory requirements for “Acquiring/Receiving
Property”6.

                     FSIO Requirements for Managing and Accounting for Property

These FSIO requirements address capturing and providing data to assist property managers and
officials in performing their duties. Property management responsibilities and activities
supported by property management systems include monitoring maintenance, utilization,
overhaul, retirement, transfer, or disposal of property. See the matrix that identifies the results of
our compliance testing for the mandatory requirements for “Managing and Accounting for
Property”. 7




6
    See Appendix B
7
    See Appendix C




                                     FEDERAL COMMUNICATIONS COMMISSION | 8
FINDING NO. 4

The FCC lacks a fully integrated financial management system between the Federal Financial
Management System (FFS) and the BarScan inventory system. BarScan does not have the
functionality to post the asset's acquisition cost, accumulated depreciation/amortization, and the
amount of gain or loss to the FCC’s FFS at the time of asset transfer, disposal, or retirement.

Office of Management and Budget (OMB) Circular A-127, Financial Management Systems
requires that agencies establish and maintain a single, integrated financial management system.
The FCC’s annual financial statement audit for fiscal year 2009 identified this lack of integration
as a significant deficiency with OMB Circular A-127. This significant deficiency could lead to
the FCC’s recording of erroneous property records through human error, as well as fraud.

Lack of an integrated financial management system may impair the ability of the financial
management system to process and record financial events effectively and efficiently, and to
provide complete, timely reliable and consistent information for FCC decision makers, Congress
and public.

RECOMMENDATION

4.1        We recommend that the FCC establish a plan for system integration between the new
           Core Financial System and the BarScan inventory system.8

FINDING NO. 5

The FCC property management system does not have the mandatory functional capability for
property accountability to capture the current user of a property item (e.g., the agency,
contractor, grantee, etc.).

The FSIO Federal Financial Management System Requirements for Property Management
Systems states that the PMS must capture the current user (e.g., the agency, contractor, grantee,
etc.) to ensure adequate physical control, which is a critical property management function.

Because the property management system does not capture the current user of a property item,
property accountability may be ineffective and this exposes the FCC to the risk of loss or misuse
of property.

RECOMMENDATION

5.1        We recommend that the FCC incorporate functionality for capturing the current user of
           property in its property management system.
8
    The FCC has plans to replace its financial management system. This is an opportunity to deliver on its strategic
    goal of modernizing the Agency, improving the efficiency and effectiveness of financial operations, and to replace
    disparate financial systems with a single integrated financial system. In FY 2008, the Commission selected a
    vendor to supply the new core financial system and provide integration services. The FCC also selected a vendor
    to assist with change management, data clean-up, and improvements to business process flows. The FCC plans to
    complete implementation of the new Core Financial System in October 2010.


                                           FEDERAL COMMUNICATIONS COMMISSION | 9
                          Design and Implementation of Internal Control

FINDING NO. 6

The FY 2009 bi-annual Report of Survey prepared by the ASC Manager identified 43 property
items as not inventoried or located, of which 29 had been in the custody of two officials and a
contractor. In addition, 14 property items had not been inventoried or located since FY 2007.
The report also identified sensitive property items not self-certified by the custodians as required
by FCC policies and procedures.

As of February 2010, issues identified in the bi-annual Report of Survey had not been addressed
by the OMD and no determination regarding the 43 property items had been made by FCC’s
Appointing Authority.

In March 2010, we received an executed bi-annual Report of Survey that showed two missing
property items had been recovered and a determination had been made by the FCC’s Appointing
Authority to conduct investigations on 27 of the 41 property items identified in the Report of
Survey. The Report of Survey for the remaining 14 property items that were reported missing or
unlocated since FY 2007 was signed by the Appointing Authority; however, there was no
indication of the action FCC would take on the matter.

The FCC’s AMP&P states, “If FCC property and/or equipment are lost, damaged, stolen or
otherwise cannibalized, a survey should be conducted to identify property and/or equipment
affected and to ensure that proper control of FCC assets is maintained. The survey will enhance
the fixing of responsibility, disposition of damaged property, avoidance of future losses,
damages and destruction by instituting corrective actions.” Also, Federal regulations,
specifically 31 U.S.C. 3512, require that agencies establish internal auditing and administrative
controls for the purpose of ensuring effective controls and accountability for assets for which
they are responsible. OMB Circular A-123, Management’s Responsibility for Internal Control,
states that management controls must provide reasonable assurance that assets are safeguarded
against waste, loss, unauthorized use, and misappropriation.

Because the FCC was not enforcing control procedures identified in OMB Circular A-123 and
the FCC Asset Management Policies and Procedures, FCC is exposed to increase risk of theft,
loss, and unauthorized use of property items. Also, the FCC master property records have not
been adjusted for the property items identified on the Report of Survey.

RECOMMENDATION

6.1    We recommend that the FCC management enforce the requirements outlined in the
       FCC’s Asset Management Policies and Procedures regarding the annual inventory
       process for sensitive property items and for reporting and accounting for lost, damaged or
       destroyed FCC property.




                                   FEDERAL COMMUNICATIONS COMMISSION | 10
                       OBJECTIVES, SCOPE, AND METHODOLOGY



We conducted a performance audit and evaluated internal control to meet the following
objectives:

                •   Determine whether the FCC’s PMS met the Financial Systems Integrations Office
                    (FSIO) (formerly Joint Financial Management Improvement Program) Federal
                    Financial Management System Requirements for Property Management Systems
                    (JFMIP-SR-00-4).

                •   Evaluate the design and implementation of internal control related to the PMS.

Conformance with FSIO requirements and compliance with laws, regulations, and FCC policy
and procedures was determined through interviewing appropriate management and technical
personnel, reviewing supporting documentation, observing system activities, and testing the
adequacy of controls.

In accomplishing the audit objectives, we performed, but were not limited to, the following
procedures:

           1. Reviewed and became knowledgeable of applicable laws and regulations and FCC
              policies and procedures relevant to the PMS.

           2. Obtained or prepared transaction cycle memoranda to document transaction
              processes/cycles and applicable internal controls.

           3. Assessed the design and implementation of internal controls for the FCC’s PMS.

           4. Reviewed the data maintained in BarScan and the Master Property Records (MPR)
              for a sample of accountable property items.

In planning and performing our audit, we obtained an understanding of the FCC’s internal
control over real9 and accountable property10, reviewed FCC procedural manuals and directives,
and performed tests to determine compliance with the FSIO mandatory property management
systems requirements. We believe that the tests performed and the evidence obtained provides a
reasonable basis for our findings and conclusions.




9
    FCC's real property includes land, buildings, leasehold improvements, and other structures (monitoring stations).
10
     Accountable property is all assets with a purchase price greater than $1,500 and software with purchase price or
    development cost greater than $50,000, which is bar-coded, scanned and recorded in BarScan. .


                                            FEDERAL COMMUNICATIONS COMMISSION | 11
We performed the above procedures at FCC Headquarters and at the main warehouse in
Maryland. We did not conduct testing at the Field Offices or Monitoring Stations, but we
confirmed that an annual physical inventory for FY 2009 had been completed at each Field
Office, Regional Office, and Resident Agent locations.

The FCC has three Regional Offices, 16 Field Offices, and nine Resident Agent locations. All
FCC property and equipment items are received and processed at the main warehouse in Capital
Heights, MD except when a waiver has been granted. We obtained the total population of land,
buildings, computer equipment, non-computer equipment, and sensitive property as recorded in
BarScan. We then selected a random sample of 258 property items to test the PMS’ compliance
with the FSIO Federal Financial Management System Requirements for Property Management
Systems.

In addition, we tested the internal controls over the Property Management System by reviewing
the information and data in BarScan and the “cradle to grave” files maintained at the main
warehouse for a random selection of 45 accountable property items. These MPR/“cradle to
grave” files should contain the related purchase order or credit card purchase form (Form A-521,
Credit Card Purchase Form), a properly executed receiving report, transfer related forms (Form
A-480), the inbound and outbound BarScan reports, and other pertinent property tracking
information.




                                  FEDERAL COMMUNICATIONS COMMISSION | 12
                     Appendix A – GENERAL REQUIREMENTS



Does the Mandatory Requirements:                                                  Yes   No
1. Record beginning balances, acquisitions, and withdrawals and calculate
   ending balances expressed in values and physical units, except for heritage
                                                                                  X
   assets and stewardship land for which all end-of-period balances are
   expressed in physical units only.
2. Capture the condition of the asset for heritage assets, stewardship land,
   national defense property, plant and equipment (PP&E), and general                   X
   PP&E for which a condition assessment survey was performed.
3. Provide edits (controls) to prevent duplication and reduce the likelihood of
   creating erroneous property documents and records to ensure the integrity      X
   of data recorded in the system.
4. Permit only authorized users to enter, modify, or otherwise alter property
                                                                                  X
   records.
5. Provide an audit trail for entries to a property record, including
                                                                                  X
   identification of individuals entering or approving information and data.
6. Identify the type of transaction affecting the property item, e.g., initial
                                                                                  X
   acquisition, change in location, and disposal.
7. Incorporate adequate security features that prevent unauthorized access to
                                                                                  X
   the property system by unauthorized individuals.
8. Enable the transfer of responsibility for property from one authorized
                                                                                  X
   manager to another authorized manager.
9. Capture real property information for GSA's worldwide inventory system
   as directed in Federal Property Management Regulation (FPMR) 102-84                  X
   (property management only).
10. Produce reports in accordance with user-defined criteria. Such reports
    may:
     Provide property information to allow appropriate users to conduct an       X
        inventory of current holdings or any subset of those holdings at any
        time.
     Allow users to access both summary data and more detailed data.
11. Capture the fact that an environmental or hazardous substance is located
    on or contained within a property item, in accordance with 41 CFR 101-        X
    42.202.
12. Distinguish between capitalized property and expensed property tracked
                                                                                        X
    in the property management system.



                                    FEDERAL COMMUNICATIONS COMMISSION | 13
              Appendix B – ACQUIRING/RECEIVING PROPERTY



Does the Mandatory Requirements:                                                    Yes   No
1. Create a skeletal property record or other mechanism for capturing
   information on property in-transit from the providing entity (e.g., vendor,
   donator, loaner, grantor, etc.). For example, the skeletal property record
   or other mechanism may identify the following on newly acquired
   property:
         • Name and address of the shipper/vendor;
         • Estimated date of delivery;                                              X
         • Shipping address (“ship to” address);
         • Item identification (e.g., quantity, description, model/serial
           number;
         • Requisition information (e.g., contract/purchase order, name
           and address of requisitioning organization); and
         • Order Date.
2. Complete the skeletal property record, or create a property record for
   items with no skeletal property record, upon assuming possession of the
                                                                                    X
   item, placing the real property asset in service, or initiation of real estate
   instrument/grant.
3. Capture the method of acquiring each property item or bulk property items
   (e.g. direct purchase, completed work-in-process, capital lease, donation,       X
   non-reciprocal transfer or reciprocal transfer) and the date of acquisition.
4. Capture quantity, date of physical receipt or date real property is available
   for use or placed into service, and condition of item received when a            X
   condition assessment survey was made.
5. Forward physical receipt information, including quantity and date of
                                                                                          X
   physical receipt, to the acquisition system and Core Financial System.


 

 

 




                                    FEDERAL COMMUNICATIONS COMMISSION | 14
      Appendix C – MANAGING and ACCOUNTING FOR PROPERTY



Does the Mandatory Requirements For:                                            Yes   No
1. Capitalized property and stewardship assets:
       a. Classify PP&E by asset type.                                          X
       b. Distinguish between heritage assets and multi-use heritage assets.    X
       c. Capture changes in quantities, including unit of measure, where       X
          applicable, for beginning balance adjustments, additions, and
          deletions, and compute ending balances by asset category.
       d. Provide an audit trail for all adjustments to quantities and units.   X
       e. Capture the acquisition cost of an asset and any changes in the       X
          valuation, where applicable for reporting purposes.
2. Capitalized property only:
      a. Capture the estimated value of donated assets.                         X
      b. Provide an audit trail for all adjustments to property values.         X
      c. Classify PP&E according to the Standard General Ledger                 X
          Accounts.
      d. Generate data for the journal entries necessary for recording          X
          changes in the valuation including any associated gains or losses.
3. Depreciation, Amortization, or Depletion of Capitalized Assets
      a. Capture the estimated useful life,                                     X
         depreciation/amortization/depletion method, and salvage/residual
         value for each asset or group of assets, when applicable.
      b. Calculate depreciation/amortization/depletion based on a               X
         management prescribed method.
      c. Accumulate amortization, depletion, and depreciation expense.          X
      d. Provide an audit trail for amortization, depletion, and depreciation   X
         expense.
      e. Allow authorized users system access to change the estimated           X
         useful life of an asset, the depreciation method, and estimated
         salvage value, and make adjustments to PP&E asset and contra-
         asset accounts on an exception basis.




                                  FEDERAL COMMUNICATIONS COMMISSION | 15
 Appendix C – MANAGING & ACCOUNTING FOR PROPERTY (Cont’d)



Does the Mandatory Requirements For:                                               Yes   No
4. Transfer, Disposal or Retirement of Assets
       a. Identify excess property or property held for disposal/retirement.       X
       b. Transfer property record data to the property disposal organization      X
          or receiving entity. Capture date of transfer, transferring entity,
          and recipient organization.
       c. Capture all essential information related to excess property and         X
          disposal as required by Federal Management Regulations 102-36
          for applicable agencies.
       d. Capture type of disposal action, final disposition, and date of          X
          disposal.
       e. Capture property retirement or disposal status.                          X
       f. Capture deletions.                                                       X
       g. Calculate gain or loss at time of disposal or retirement, sale,          X
          exchange, donation.
       h. Transfer the asset’s acquisition cost, accumulated                             X
          depreciation/amortization, and the amount of gain/loss to the Core
          Financial System at the time of asset transfer, disposal, or
          retirement.
       i. Maintain an audit trail of transfer, disposal, and retirement actions.   X
5. Deferred Maintenance and Condition
      a. Capture management’s estimate of deferred maintenance.                    N/A   N/A
      b. Capture management’s assessment of property condition.                    N/A   N/A
      c. Capture the fact that an environment or hazardous substance is            N/A   N/A
          located on or contained within a property item in accordance with
          41 CFR 101-42.202.
6. Clean-up Costs
      a. Capture the total estimated clean-up cost when the item is placed         N/A   N/A
          in service if the PP&E meets the criteria established in paragraph
          88 of SFFAS NO. 6.
      b. Capture environmental liabilities associated with PP&E when an            N/A   N/A
          event has occurred and the liability is probable and estimable.
      c. For general PP&E, calculate the annual amortization of estimated          N/A   N/A
          material, clean-up costs, and the unamortized balance.




                                   FEDERAL COMMUNICATIONS COMMISSION | 16
    Appendix C – MANAGING & ACCOUNTING FOR PROPERTY (Cont’d)



Does the Mandatory Requirements For:                                             Yes   No
7. Property Accountability
       a. Capture property identification number, which may be the item’s        X
          serial number.
       b. Capture location.                                                      X
       c. Capture an item’s current ownership status.                            X
       d. Capture the current user (e.g., the agency, contractor, grantee,             X
          etc.).
       e. Capture an item’s current use status whether in-use, in storage, in-
                                                                                 X
          transit, etc.
       f. Capture identity of property custodian and/or the accountable          X
          organization.
       g. Capture in-transit information to establish/maintain accountability    X
          and control over Governmental property.


 

 

 

 

 




                                  FEDERAL COMMUNICATIONS COMMISSION | 17
                   Appendix D – MANAGEMENT’S RESPONSE



The FCC’s Management’s Response is provided as an attachment and includes management’s
concurrence with Findings No. 2, 4, and 6. However, management does not concur with
Findings No. 1, 3, and 5. Lani Eko & Company has evaluated and assessed the validity of the
auditee’s comments.

FCC’s management has a different interpretation of the FSIO system requirements in regards to
the property management system’s capability to capture the current user of a property item, for
conducting and documenting a Condition Assessment Survey, and to distinguish between
property expensed and property capitalized. However, in regards to Finding No. 3, FCC
management will contact GSA and OMB to request a determination of compliance with the
Condition Assessment Survey (CAS). This response is in agreement with our recommendation.

 




                                  FEDERAL COMMUNICATIONS COMMISSION | 18
FEDERAL COMMUNICATIONS COMMISSION | 19
FEDERAL COMMUNICATIONS COMMISSION | 20
FEDERAL COMMUNICATIONS COMMISSION | 21
